 

IN THE SUPREME COURT OF THE UNITED STATES
No. 20-7065
ANIBAL CANALES, JR., PETITIONER,

Vv.
BOBBY LUMPKIN, RESPONDENT.

CERTIFICATE OF COMPLIANCE WITH RULE 33.1(G)

I, Alexis Hoag, counsel for amici curiae, hereby certify that, according to the
word-count tool in Microsoft Word, the Brief of Arizona Capital Representation
Project, Capital Appeals Project, Capital Post-Conviction Project of Louisiana,
Center for Death Penalty Litigation, Georgia Resource Center, Justice 360,
Louisiana Capital Assistance Center, Mississippi Office of Capital Post-Conviction
Counsel, and Promise of Justice Initiative as Amici Curiae in Support of Petitioner
consists of 4,418 words, including footnotes and excluding the sections enumerated

by Rule 33.1(d). The Brief therefore complies with Rule 33.1(g).

z
Alexis = 7 C 5

Associate Research Scholar &
Lecturer

Columbia Law School

435 West 116th Street, Ste 605
New York, NY 10027

(212) 853-2090
alexis.hoag@law.columbia.edu
